No. 20-440

 

IN THE

Supreme Court of the Anited States

MINERVA SURGICAL, INC., PETITIONER,

Uv.
HOLOGIC, INc., CyTyc SURGICAL PRobuctTs, LLC,
RESPONDENTS.

ON WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FEDERAL CIRCUIT

BRIEF FOR RESPONDENTS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

12,999 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 24, 2021.

 

Wilson-Epes Prinfmng Co., Inc.
